Department of Homeland Security
   Ofﬁce of Inspector General

            Ohio Law Enforcement Terrorism 

                  Prevention Program 

            Subgrants Fiscal Years 2004–2006 





OIG-11-60                                        March 2011
                                                             Office of Inspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




                                       MAR 23 2011

                                         Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses the accountability and proper use of grant funds of the Federal
Emergency Management Agency Law Enforcement Terrorism Prevention Program,
subgranted by the state of Ohio during fiscal years 2004–2006. It is based on interviews
with employees and officials of relevant agencies and institutions, direct observations,
and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.


                                      Anne L. Richards
                                      Assistant Inspector General for Audits
Table of Contents/Abbreviations
Executive Summary ........................................................................................................... 1 


Background ........................................................................................................................ 2 


Results of Audit ................................................................................................................. 3 


     Non-Payroll Expenditures ............................................................................................ 3 

     Recommendation ......................................................................................................... 6 

     Management Comments and OIG Analysis ................................................................ 6 


     Payroll Expenditures .................................................................................................... 6 

     Recommendation ......................................................................................................... 9 

     Management Comments and OIG Analysis ................................................................ 9 


Appendices
     Appendix A:           Purpose, Scope, and Methodology ..................................................... 10 

     Appendix B:           Management Comments to the Draft Report ..................................... 12 

     Appendix C:           Non-payroll Questioned Costs ........................................................... 16 

     Appendix D:           Major Contributors to this Report ...................................................... 17 

     Appendix E:           Report Distribution ............................................................................ 18 


Abbreviations
     DHS                   Department of Homeland Security 

     OIG                   Office of Inspector General 

     FEMA                  Federal Emergency Management Agency 

     FY                    fiscal year           

OIG
 

Department of Homeland Security
Office of Inspector General

Executive Summary
                     At the request of the Federal Emergency Management Agency
                     Grant Programs Directorate, the Department of Homeland Security
                     Office of Inspector General audited the Law Enforcement
                     Terrorism Prevention Program funds subgranted by the Ohio
                     Emergency Management Agency to the Ohio Association of
                     Chiefs of Police. The audit focused on approximately $21,500,000
                     awarded during fiscal years 2004 through 2006.

                     We reviewed questioned costs of $1,992,209 in non-payroll and
                     $2,851,945 in payroll costs totaling $4,844,154 previously
                     identified by the accounting firm Crowe Horwath. We verified
                     these costs were either not allowable or did not have proper
                     supporting documentation, and confirmed the findings in the
                     Crowe Horwath report. The expenditures were unallowable
                     because they were unrelated to the grant activity, misclassified,
                     outside the period of performance, or not supported by receipts or
                     invoices. We also reviewed a judgmental sample of the remaining
                     grant funds expended by the Ohio Association of Chiefs of Police,
                     and agreed with Crowe Horwath’s determination of compliance
                     with grant requirements for those funds.

                     We made two recommendations to the Federal Emergency
                     Management Agency to request reimbursement of $1,992,209
                     from the Ohio Emergency Management Agency for non-payroll
                     expenditures that were unallowable or did not have proper
                     supporting documentation, and $2,851,945 in unallowable payroll
                     expenditures, for a total of $4,844,154.

                     The Federal Emergency Management Agency concurred with the
                     recommendations and is taking action to implement them.




      Ohio Law Enforcement Terrorism Prevention Program Subgrants Fiscal Years 2004–2006 


                                            Page 1 

Background
 

                    As part of the Federal Emergency Management Agency (FEMA)
                    Law Enforcement Terrorism Prevention Program, the Ohio
                    Emergency Management Agency awarded the Ohio Association of
                    Chiefs of Police more than $21 million over 3 fiscal years (FYs)
                    (2004–2006) to establish a computer network to improve
                    communication among law enforcement agencies by linking
                    Ohio’s 900+ police agencies. The Ohio Local Law Enforcement
                    Information Sharing Network developed with these funds has been
                    implemented and is currently operated by the Ohio State Attorney
                    General’s Office.

                    In 2005, the Ohio Emergency Management Agency conducted a
                    review of the Ohio Association of Chiefs of Police that identified
                    questioned and unsupported costs. The Ohio Emergency
                    Management Agency requested assistance and guidance from
                    FEMA on how to proceed owing to ongoing concerns with the
                    Ohio Association of Chiefs of Police grant administration. As a
                    result, the Ohio Emergency Management Agency retained the
                    accounting firm Crowe Horwath LLP to conduct a comprehensive
                    review of the Ohio Association of Chiefs of Police financial
                    records for FYs 2004–2006. Crowe Horwath found $4,844,154 in
                    questionable costs.

                    In November 2009, the FEMA Grant Programs Directorate
                    reviewed the accounting firm’s report and the Ohio Emergency
                    Management Agency’s subsequent analysis of this report. In
                    March 2010, FEMA requested that the State of Ohio reimburse
                    $4,498,996 for expenditures that were either not allowable or did
                    not have proper supporting documentation. The FEMA request for
                    reimbursement was $345,158 less than the Crowe Horwath amount
                    because FEMA considered expenditures that had been
                    misclassified by the Ohio Association of Chiefs of Police as
                    allowable.

                    In April 2010, FEMA requested that the Department of Homeland
                    Security Office of Inspector General (DHS-OIG) conduct an audit
                    of the Ohio Emergency Management Agency’s Law Enforcement
                    Terrorism Prevention Program, from which the Ohio Association
                    of Chiefs of Police received its funding, for FYs 2004–2006, to
                    ensure that Crowe Horwath provided the most thorough and expert
                    review of its grant activities and financial accounting.




     Ohio Law Enforcement Terrorism Prevention Program Subgrants Fiscal Years 2004–2006 


                                           Page 2 

Results of Audit 

             During FYs 2004–2006, the Ohio Association of Chiefs of Police spent
             $4,844,154 in Law Enforcement Terrorism Prevention Program funds that
             were not allowable or did not have proper supporting documentation. The
             expenditures ($1,992,209 in non-payroll-related grant funds and
             $2,851,945 in payroll-related grant funds) were not permitted for several
             reasons, including that they were unrelated to the grant activity,
             misclassified, outside the period of performance, or not supported by
             receipts or invoices. We also reviewed a judgmental sample of the
             remaining grant funds expended by the Ohio Association of Chiefs of
             Police, and agreed with Crowe Horwath’s determination of compliance
             with grant requirements for those funds.

     Non-Payroll Expenditures
             To determine the unallowable expenditures the Ohio Association of Chiefs
             of Police charged to the Law Enforcement Terrorism Prevention Program
             from FYs 2004–2006, we evaluated Crowe Horwath’s questioned
             non-payroll costs, such as vendor invoices. We reviewed grant funds
             awarded and expended from the FYs 2004–2006 grants to ensure all
             expenditures were in accordance with federal laws, agency regulations,
             and grant agreements and guidelines. There were five categories of
             questioned costs: unsupported allocations, transactions outside of the
             period of performance, misclassification of expenditures, unsupported
             transactions, and unrelated to grant activity.

             Table 1 summarizes the results of our review of the non-payroll
             transactions in comparison with the Crowe Horwath review. We were
             unable to review 100% of the questioned costs because the Ohio
             Association of Chiefs of Police was unable to locate supporting
             documentation. Since hard copies of these records had been available for
             previous reviews, we believe these records were misfiled. We were still
             able to verify more than 90% of the questioned costs.




      Ohio Law Enforcement Terrorism Prevention Program Subgrants Fiscal Years 2004–2006 


                                            Page 3 

             Table 1. Law Enforcement Terrorism Prevention Program 

                       Questioned Costs for FYs 2004–2006 

                                        Crowe            DHS-OIG
           Questioned Costs                                               Not Verified
                                       Horwath            Verified
        Unsupported
                                        $365,528          $318,166            $47,362
        Allocations
        Transactions Outside of
                                        $789,846          $782,313             $7,533
        Period of Performance
        Misclassification of
                                        $345,158          $307,332            $37,826
        Expenditures
        Unsupported
                                        $269,480          $227,701            $41,779
        Transactions
        Unrelated to Grant
                                        $222,197          $185,840            $36,357
        Activity
        Totals                        $1,992,209        $1,821,352          $170,857

                 Unsupported Allocations

                 The transactions that represented the costs categorized as
                 unsupported allocations included utilities and building
                 maintenance allocated across several funds. Transactions in this
                 category either had no support for the basis of allocation or had no
                 allocation noted. No documentation was provided to explain how
                 allocation percentages to the Law Enforcement Terrorism
                 Prevention Program were derived. We were able to review
                 $318,166 of the $365,528 questioned by Crowe Horwath as
                 unsupported allocations, and we concurred with its finding.
                 Additional details are provided in Appendix C.

                 Transactions Outside of Period of Performance

                 Each grant awarded to the Ohio Association of Chiefs of Police
                 had a period of performance, and the transactions representing
                 these costs were allocated over this period of performance. For
                 example, the Internet maintenance contracts were three-year
                 contracts, whereas the period of performance for the Law
                 Enforcement Terrorism Prevention Program grant was two years.
                 The contract must have been completed within the grant’s
                 two-year period of performance to be allowable. We were able to
                 verify $782,313 of the $789,846 questioned by Crowe Horwath as
                 transactions outside the period of performance, and we concurred
                 with its finding. Additional details are provided in Appendix C.




Ohio Law Enforcement Terrorism Prevention Program Subgrants Fiscal Years 2004–2006

                                      Page 4
               Misclassification of Expenditures

               These costs include those that would be allowable had the cost
               been properly classified at entry in the accounting records, or costs
               that were included on the Ohio Association of Chiefs of Police’s
               budget worksheet, but were not assigned to the appropriate
               accounting code. For example, legal fees should have been
               classified as miscellaneous support and not as contractual support.
               The Ohio Association of Chiefs of Police maintained a Budget
               Detail Worksheet for each grant year. According to the budget
               worksheet, legal costs should have been classified and assigned to
               the administrative/miscellaneous costs account rather than the
               planning costs account; the planning costs were specifically
               classified for subject matter experts (contractors) to undertake
               program development. We were able to verify $307,332 of the
               $345,158 questioned by Crowe Horwath as misclassified
               expenditures, and we concurred with its finding. Additional details
               are provided in Appendix C.

               Unsupported Transactions

               Transactions that had no supporting documentation or insufficient
               supporting documentation were included in this category. This
               category also includes transactions for which prior authorization by
               the Ohio Emergency Management Agency was required, but not
               received, under Office of Management and Budget Circular A-87,
               Cost Principles for State, Local and Indian Tribal Governments.
               For example, representatives from the Ohio Association of Chiefs
               of Police traveled to Turkey for training. There was no
               documentation supporting the approval of the trips. All
               international travel should have been approved before the trip. We
               were able to verify $227,701 of the $269,480 questioned by Crowe
               Horwath as unsupported transactions, and we concurred with its
               finding. Additional details are provided in Appendix C.

               Unrelated to Grant Activity

               This category included transactions for which we were unable to
               determine how the costs incurred benefited the grant program. For
               example, items in this category include printing books, award
               plaques, and lapel pins that were not related to the grant objective.
               We were able to verify $185,840 of the $222,197 questioned by
               Crowe Horwath as costs unrelated to grant activity, and we
               concurred with its finding. Additional details are provided in
               Appendix C.


Ohio Law Enforcement Terrorism Prevention Program Subgrants Fiscal Years 2004–2006

                                      Page 5
               Conclusion

               Crowe Horwath identified $1,992,209 in non-payroll questionable
               costs, and we verified $1,821,352 of this amount. Based on our
               review of available documentation and confirmation of the Crowe
               Horwath analysis, we agreed with its findings.

       Recommendation
               We recommend that the Assistant Administrator, Grant Programs
               Directorate:

               Recommendation #1: Request reimbursement of $1,992,209
               from the Ohio Emergency Management Agency for non-payroll
               expenditures that were unallowable or did not have proper
               supporting documentation.

       Management Comments and OIG Analysis
               The FEMA Grant Programs Directorate concurred with the
               recommendation and will request reimbursement from the Ohio
               Emergency Management Agency for non-payroll expenditures
               totaling $1,012,043. The FEMA Grant Programs Directorate will
               consider the remaining $980,166 in non-payroll costs as
               unallowable, unless within 90 days of the date of this report, the
               Ohio Emergency Management Agency provides supporting
               documentation that demonstrates the expenditures noted were
               allowable and in accordance with grant program guidance.

               FEMA’s proposed actions address the intent of the
               recommendation, and we consider this recommendation resolved
               and open. Once FEMA has fully implemented the
               recommendation and submits a formal close-out memorandum,
               including evidence of completion of agreed-upon corrective
               actions and of the disposition of any monetary amounts, we will
               close the recommendation.

Payroll Expenditures
       To determine the unallowable payroll expenditures the Ohio Association
       of Chiefs of Police charged to the Law Enforcement Terrorism Prevention
       Program from FYs 2004–2006, we evaluated Crowe Horwath’s
       questioned payroll costs. We reviewed the Ohio Association of Chiefs of
       Police timesheets, payroll allocation forms, and health insurance
       documents for compliance with federal laws, agency regulations, and

Ohio Law Enforcement Terrorism Prevention Program Subgrants Fiscal Years 2004–2006

                                      Page 6
       grant agreements and guidelines. We identified three categories of
       questioned costs: lack of compliant timesheets, lack of timesheets, and
       lack of health insurance documents.

               Lack of Compliant Timesheets

               To determine if the Ohio Association of Chiefs of Police
               timesheets were compliant, we reviewed 85 individual staff
               timesheets for employee signature and evidence of supervisory
               review. Of these 85, only 40 were signed by the employee and
               reviewed by a supervisor. Office of Management and Budget
               Circular A-87 requires employee salaries and wages to be
               supported by periodic certifications stating that the employees
               worked solely on the program for which the grant was awarded
               during the period covered. These certifications must be prepared
               at least semiannually and must be signed by the employee or
               supervisor with firsthand knowledge of the work performed.

               Table 2 summarizes the results of our review of the timesheets.
               We were unable to review 100% of the Crowe Horwath costs
               because supporting documentation that had been available for
               previous reviews was now missing.

                         Table 2. Review of Available Payroll Timesheets
                                       for FYs 2004–2006
                                          Signed &        Employee
                         Date                                                  Total
                                          Reviewed       Only Signed
                August 2004                  11               3                      14
                June 2004                      3               1                     4
                July 2004                      13              1                     14
                October 2004                   2              19                     21
                November 2004                  0               2                     2
                September 2005                 3              14                     17
                December 2006                  8               5                     13
                Totals                         40             45                     85

               Lack of Timesheets

               For the 3-year period 2004–2006, we expected to review 832
               timesheets based on a biweekly pay schedule, but we received only
               85 for review. The Ohio Association of Chiefs of Police did not
               require timesheets for the staff or the Executive Director on a
               regular basis. Again, Office of Management and Budget Circular

Ohio Law Enforcement Terrorism Prevention Program Subgrants Fiscal Years 2004–2006

                                      Page 7
               A-87 requires employee salaries and wages to be supported by
               periodic certifications stating that the employees worked solely on
               the program for which the grant was awarded during the period
               covered.

               Table 3 summarizes the results of our review of the total number of
               timesheets that should have documented payroll expenditures. We
               were unable to verify 100% of the staff payroll costs Crowe
               Horwath identified because supporting documentation that had
               been available for previous reviews was now missing, or the
               records did not exist because the Ohio Association of Chiefs of
               Police did not require timesheets.

                   Table 3. Expected Payroll Timesheets for FYs 2004–2006
                                                              Timesheets
                             Staff That                                       Timesheets
                  Grant                          Timesheets   Provided to
                            Performed                                         Provided to
                  Year                            Expected      Crowe
                            Grant Work                                         DHS-OIG
                                                               Horwath
                  2004              7                182           70                55
                  2005            13                 338            17               17
                  2006            12                 312            13               13
                Totals            32                 832           100               85

               In addition, we were not able to obtain all timesheets for the former
               Ohio Association of Chiefs of Police Executive Director during FYs
               2004–2006. We were able to obtain timesheets from 2004 and the
               Executive Director’s handwritten notes that were used to document
               his time for February and March 2006. The timesheets were not
               compliant. The 2004 timesheets did not include a name, date, or
               signature. Those from 2006 were not signed by the Executive
               Director and showed no indication they had been reviewed. In
               addition, they all displayed the same date, as if they were all created
               on the same day for an entire year, or as if that particular date was
               added to all the timesheets. Crowe Horwath questioned $803,678
               that was allocated to the grant. We were unable to quantify a total
               based on the limited supporting documents received.

               Lack of Health Insurance Documents

               Health care insurance was provided to the Ohio Association of
               Chiefs of Police staff and the Executive Director; however,
               because of inadequate timesheets, health insurance costs were
               questioned because they were allocated based on time records.
               The Ohio Association of Chiefs of Police was unable to provide
               health insurance documents for FYs 2004–2006.

Ohio Law Enforcement Terrorism Prevention Program Subgrants Fiscal Years 2004–2006

                                        Page 8
               Conclusion

               Crowe Horwath identified $2,851,945 in questionable payroll costs.
               We were able to review only staff payroll allocation records
               totaling $1,330,061 in questioned costs that the Ohio Association of
               Chiefs of Police payroll allocated to the grant for FYs 2004–2006.
               We were not able to verify the entire Crowe Horwath amount
               owing to the lack of supporting and compliant documentation.
               Based on our review of available documentation and confirmation
               of the Crowe Horwath analysis, we agreed with its findings.

       Recommendation
               We recommend that the Assistant Administrator, Grant Programs
               Directorate:

               Recommendation #2: Request reimbursement of $2,851,945
               from the Ohio Emergency Management Agency for payroll
               expenditures that were unallowable or did not have proper
               supporting documentation.

       Management Comments and OIG Analysis
               The FEMA Grants Programs Directorate concurred with the
               recommendation. The expenditures for the Executive Director’s
               salary were unreasonable, unallowable, and inconsistent with grant
               guidance, and the Ohio Emergency Management Agency must
               reimburse the federal government for these expenditures. For the
               other payroll expenses, FEMA has given the Ohio Emergency
               Management Agency 90 days to provide additional documentation
               substantiating these costs. If approved by the FEMA Grants
               Programs Directorate, these costs may be considered allowable in
               accordance with grant program guidance. Failure to provide the
               requested documentation within 90 days will lead to the costs
               being considered as a debt and referred to FEMA’s Office of the
               Chief Financial Officer for collection.

               FEMA’s proposed actions address the intent of the
               recommendation, and we consider this recommendation resolved
               and open. Once FEMA has fully implemented the
               recommendation and submitted a formal close-out memorandum,
               including evidence of completion of agreed-upon corrective
               actions and of the disposition of any monetary amounts, we will
               close the recommendation.



Ohio Law Enforcement Terrorism Prevention Program Subgrants Fiscal Years 2004–2006

                                      Page 9
Appendix A
Purpose, Scope, and Methodology

                      The purpose of the audit was to review the Law Enforcement
                      Terrorism Prevention Program funds awarded to and expended by
                      the Ohio Association of Chiefs of Police during FYs 2004–2006 to
                      ensure that the accounting firm Crowe Horwath had performed a
                      thorough and expert review of the grant expenditures and financial
                      accounting.

                      To determine the unallowable non-payroll expenditures the Ohio
                      Association of Chiefs of Police charged to the Law Enforcement
                      Terrorism Prevention Program from 2004 through 2006, we
                      evaluated Crowe Horwath’s questioned non-payroll costs, such as
                      vendor invoices. We reviewed grant funds awarded and expended
                      during FYs 2004–2006 to ensure all expenditures were in
                      accordance with federal laws, agency regulations, and grant
                      agreements and guidelines.

                      To determine the unallowable payroll expenditures the Ohio
                      Association of Chiefs of Police charged to the Law Enforcement
                      Terrorism Prevention Program from FYs 2004–2006, we evaluated
                      Crowe Horwath’s questioned payroll costs. We reviewed the Ohio
                      Association of Chiefs of Police timesheets, payroll allocation
                      forms, and health insurance documents for compliance with federal
                      laws, agency regulations, and grant agreements and guidelines.

                      Fieldwork was conducted at the FEMA office in Washington, DC,
                      the Ohio Emergency Management Agency office, and the Ohio
                      Association of Chiefs of Police office. Fieldwork included a
                      review of applicable laws, regulations, policy, and internal
                      directives used by FEMA and the Ohio Emergency Management
                      Agency to authorize, identify, report, and track expenses. The
                      team developed an understanding of the application approval and
                      oversight process for grant funds.

                      We reviewed all available receipts for the $4,844,154 Crowe
                      Horwath identified as questioned funds. We also reviewed a 2%
                      judgmental sample of the remaining Law Enforcement Terrorism
                      Prevention Program funds expended by the Ohio Association of
                      Chiefs of Police to verify Crowe Horwath’s finding of compliance
                      with grant requirements.

                      We interviewed FEMA, Ohio Emergency Management Agency,
                      and Ohio Association of Chiefs of Police officials to obtain their
                      views and opinions on the Law Enforcement Terrorism Prevention
                      Program grant, the communication system that resulted from the
                      grant, and additional areas of concern.


       Ohio Law Enforcement Terrorism Prevention Program Subgrants Fiscal Years 2004–2006 


                                            Page 10 

Appendix A
Purpose, Scope, and Methodology


                      The audit was not a financial statement review and we did not
                      provide an opinion on whether the subgrantee’s financial
                      statements were presented in conformity with generally accepted
                      accounting principles.

                      We conducted this compliance audit between May and December
                      2010 pursuant to the Inspector General Act of 1978, as amended,
                      and according to generally accepted government auditing
                      standards. Those standards require that we plan and perform the
                      audit to obtain sufficient, appropriate evidence to provide a
                      reasonable basis for our findings and conclusions based on our
                      audit objectives. We believe that the evidence obtained provides a
                      reasonable basis for our findings and conclusions based on our
                      audit objectives.




       Ohio Law Enforcement Terrorism Prevention Program Subgrants Fiscal Years 2004–2006 


                                            Page 11 

Appendix B
Management Comments to the Draft Report


                                                                                 m._.._ _
                                                                                 >;_OC»<7>




                                                                   GF EMA
                                                  F<bnwy 11,2(111

         lIEYORA.';DUMFOR:             An...LRiclw<h
                                       AsU"mt Insponor G<n<nl for Audits

         FRO.\!:



         SUBJECT:                      R<>pom< to IhfI R.<port OIG: Ohio Low Enfor.....- T<norism
                                       Prn_ Proz<am ~ Fiscal Y.... lOO4-lOO6
         Thalli: you for Ibo opp<>JlUIlity to COCIlIIIODl OIl Ibo subj<ct dr>ll r<port ontitI<d, "OIIio Low
         &fon:_ T<norism         Prn_           Proz<am Subgan!I Fiscal Y.... lOO4-lOO6". The fmo:Iiq:s ill tho
         f<pOJ1 will be used to ~ tho .rr..::IP."m<OS.M of6cioon<y ofbow ".., <UClIIe mol .....""" 1be
         _         W. ~ tho ..-I to cootinuo to imprm.., 1ho procns. iD<:h>iliojo; ~ tho
         =ommmdItiom ..i><d in !his r<port.

         Thalli: you for Ibo opp<>JlUIlity to =pood to tho r<port mol to wed: wiIh tho Oflic< of1be Imp<rto.-
         G<oonl Ibm,; !his 0CIp~""""-




         «:     Lo"", ees.rio, Dir<etor, Gn", AdmiDisttatiOll ood Asm"DC< Divisioa
                MiIdr<d Lloyd, GPD Audit liai>on




                                                                                --
       Ohio Law Enforcement Terrorism Prevention Program Subgrants Fiscal Years 2004–2006
 


                                                     Page 12
 

Appendix B
Management Comments to the Draft Report




              RnpH.. '0 ,Il< Dnrt R<pon OIG-IIl-I./O-AUD-FEllA: 01Uo Law EBfor«.'o'
                           T rornm Pr....oliooo Pr0lr>m S.bl"-"" FY M-06

            ole Rooo       no. II: ~,.--....-ofSI.I'I'JX'\' frnm Ohio
            ~        Mom!="", Ay!Jr; ((lEMA) ro. """",,,,~bl< llOIl_poyroD ~ ill
            >Om< e.,..lxl:~prop<J docum<nlatiOlL


            FDiA RnpH.. '0 OIG 1'KODlIII. . . . . ti.. II: _     OIl Ib< DIIS OIG.udit, FEMA
            GratIt Prouomo Dircct""l< (GPD) eOD<Un with Ib< = " "...,btioa tha, FEMA """"
            ~ frnm OEMA mil "ill do so fOJ llOJI_po}'roll np<DI!itur<s """"'"
            ",,"!low"l< by FEMA. b:> its It' ,."".... "i""
                                                        ~I, Ib< OIG.v-I with "" ~
            HO<Wllth wdi, fmo:linp wlOCh _ _ UIl&1ltJwobic costs .. folkm~:

            (.j ~ ollocotioo< SJM,~21
            (b) ,.. etions  _tic     ofp<Jf~ p<riocI $1f;\1.141i
            (ej mjvl ifi<>tioa of <IJl"ll'hturn $l4~,U8
            (<I) """'PI""" lnmal"Iioom $269,410, ODd
            (.j lIIIl<lo1od '0 Ib< UU" Ol"!i\'ity $222,191



            U-...bl. <0'"" (bj omd (.). FEMA GPD eOD<Un with Ib< oudil tho1 CO<IS ro. both of
            _  C01~. toI>1iD,o; ",012,043 .,. UIl&1Wwoblc.


            U-...bl              (.), (c) om. (<I), .bo.... FEMA GPD ",:ill <omid« tb< $980,166 ill
            ""II .. tl"oll", b1<, WlI<ss OEMA I""''idcs ~ tIocummblioo               ",tbiD90 doY'
            oflb< ..... ofthil rcpon tha, tI<mom,..... Ib< cxpcndiIu= -..I ....... .no..~bl< mil iII
            """",dm::. ",ith uo'" _           ~


            By way of ~ Ib< DIIS OIG vcrifiod.,otol oU221,l01 ill """'PI"""
            ,.....etions ISlIOCiat<d with iol<mlli.oool "....1tha, mm>b<n oflb< Ohio Asoociatioa of
            an.& ofPobcc (OACP) IIIaIl< to Ib< <OIIIIIIy ofTud:~. b:> oro..: to ,,'<lid tbilI fimn
            ~ GPD hocI .... blUb<d. policy ,,'b<r<by y>III<ft.,. r<qIIir<d '0 submiI, prio.- to
            un~ "'....... _'<1, • ",ri_ f<qII<Sl to <locummt mil justify UU" ",Io,od _'ft           '0
            • fomp> «IlIIIlry. Prior to 0IIIl0lID<~ Ib< ...... policy tho1 ~ .... tm1SI submiI.
            f<qII<Sl to wtboriz< _"I "'           _     eo<1I " .... ill fon ooosid<J<d l!low.bIc. bill
            tlD1y witbiD Ib< oc:op< oflb< fucol j    (fY) 2001 tlIrouy. IT 2006 Low Eufor''''''IIl
            T«ro<i=   Pm_           Proz<am-
            b:> ord<J '0 assisl FEMA GPO ",th ~ ill tI<t«minotioa f<JI .ll",nbility oflb<..
            <XJI<IlS<S "" UU".. IIIII5I ..bmi, "" followiJql; info<mIliolII",ilbiII 90 doyo

                   Nom< ofS,.,. oodIOIlocol oys><y ~ _"I;
                   NwmoJ of iJ>di,-idwol< ~1ICiIqI; _,,~ iD<h>dio,o; .. ol:ltitlc ood .~
                   afliliotioo




       Ohio Law Enforcement Terrorism Prevention Program Subgrants Fiscal Years 2004–2006
 


                                                     Page 13
 

                                                                                                                                                                                  Appendix B




                                                                                                         ~'~il·t·
                                                                                                         ~g,~ ~~ ~ ~!t~~
                                                                                                                   >"~~      0:
                                                                                                                         ~~. "gg'" §;fi~"
                                                                                                                                       >~ ~~
                                                                                                                                      if·      e'       0:>   "'i'
                                                                                                                                                              R~~.~      ....

                                                                                                                                               H,
                                                                                                          ~i tr j ,Hrl . ~rH' {'h~ 1r i r °i~i ~m!'
                                                                                                                                 ~i    I~i                     "[. ~n~
                                                                                                                                ,,~ .'~!
                                                                                                                                "t:-
                                                                                                                                      'j1'
                                                                                                                                    li"lf!'
                                                                                                                                      Sl    ~'t ~H'
                                                                                                                                                ,I  fl         ~
                                                                                                           ]"';0     "F" i
                                                                                                                        '--I'"'~ I·,t ~ u~. ~~i i!q
                                                                                                         Ji,m!l
                                                                                                          .•.. '~'IH~.           .~~i I r.! {'~·r·
                                                                                                                 H~I~ ! • .-~ .ill            .
                                                                                                                                                   WJ!
                                                                                                                                                   ,-"
                                                                                                     ,
                                                                                                                                                                                  Management Comments to the Draft Report




                                                                                                          fthl~~ I,H~ ~ ~ HII t H .~ H~fa




Page 14
 

                                                                                                          rif~;!f~ ~[U··               H[~' 11 i h }~ j 1
                                                                                                           .~o~I~~ If?.~               ~~ ~ r~ §    ~,lf ~          8
                                                                                                           tt"•• 1ft,
                                                                                                          "~I""       o.
                                                                                                                                        ~Ii
                                                                                                                                        .r, ~'.
                                                                                                                                              - ,~.
                                                                                                                                                ,"  i.,
                                                                                                                                                    ~ ••
                                                                                                                                                         "                    ?
                                                                                                          ~o4~!.       .'Ji             H·  n .~~ .[1 "
                                                                                                          ~HHH
                                                                                                          h,   1,1
                                                                                                          ~S'~ f~
                                                                                                                     ~m
                                                                                                                     'lH
                                                                                                                     ~ U
                                                                                                                                       I~t
                                                                                                                                       .~
                                                                                                                                       ~I;'
                                                                                                                                                    Hm
                                                                                                                                                    f
                                                                                                                                                    ~
                                                                                                                                                     'U l,t
                                                                                                                                                        i! .
                                                                                                                                                            I  t1l>/,=
                                                                                                                                                                         ~;
                                                                                                                                                                              ~
                                                                                                          :!   'f    . a!                'i         a          ~ •.      !t
                                                                                                                                                                         "




             Ohio Law Enforcement Terrorism Prevention Program Subgrants Fiscal Years 2004–2006
 

Appendix B
Management Comments to the Draft Report




            OEMA sbouId    pm.         suffici<nl ~ ~ pnsition <I=:ipIi-, ........,
            and fringe _lit> ill suflici<nl drtoil, iIId~ =tificotiom by <U<Vti,... ill chary of
            til< ~ that <fttIin wml,,"aS cam.d '"" IDII poIf<>Jm<d. By prm~ this
            do<       '-boD .M J,o,...1 of <lotm, FEMA GPO will bo.blo tG mak................... to
            til< .lipbility md all<JwIbility fur poymeDl of,alf ..1ari<s ",lat<d to th< B~ tim<ob<fl>
            _            ill til< DIIS OlG rq><>n

            Tbi< infonmlioI:l aDd II!l _     oh_tioID pJb<t>nti.1i.Dl! <...     mm'    be rubnitl<d
            ",ithin 90 days to FEldA GPD f<JI cOll5i<lontiocl IT ~'M by FEMA GPD, _                 CO<IS
            ""y be «JDrid<nd .no..~bl< ill occmim<. "ith uu" prouun ~
            Failur< to JII'I';<!o the "'P'''od <Iocum<nt>tioo ",ithin 90 days will II< ~ IS I
            _     IDI! ",r..nd to FEMA > I Offic. of aD<r Filwrial Oflicor (OCFO) fur rnu..:ti<n
            At that tim<, FEMA GPO will ",liDquish.il r<sp<>mibility to «111«:, til< _ to FEMA
            OC'O

            It is .... - that proper odmi%li>tJ>tM ood C<Kt priDcipl« of~. ""'~ " ....
            .......ly bchD,o; .. til< SII'" t...'ti. 'Tb< SII'" hu, ~"'" tI!<... ...,. to mitipt< ......
            fiDo:Iinp id<oti6<d throup. FEMA mooitorio,o;'M by th< 010. his ."idont!hat 1be Sbl.
            i! ~ tb< D<CftUlJ' ""'" to put in pia« sound fma<rial IIWII~ pn<ti<n md
            tools 1o miti.9'0 and.void this fimn ~;" til< funn.




                                                         ,



       Ohio Law Enforcement Terrorism Prevention Program Subgrants Fiscal Years 2004–2006
 


                                                     Page 15
 

Appendix C
Non-payroll Questioned Costs


The following tables display the five categories of questioned costs for non-payroll
expenditures. Three transaction codes were used to post the invoices to the correct
account: 5124, 5126, and 5127, representing the individual grant years.

Table C-1 displays the total amount of the Ohio Association of Chiefs of Police
expenditures Crowe Horwath identified as questionable costs. Table C-2 displays the
total amount of expenditures DHS-OIG was able to confirm. We verified $1,821,352, of
the $1,992,209 questionable costs.

            Table C-1. Non-Payroll Questionable Costs – Crowe Horwath
                                        Account            Account      Account
        Crowe Horwath
                                         5124               5126         5127            Totals
  Questioned Costs Reviewed
                                        FY 2006            FY 2004      FY 2005
Unsupported allocations                129,200             119,006      117,322          365,528
Transactions outside of period of
                                         42,157            195,743      551,946          789,846
performance
Misclassification of expenditures        64,108            193,982       87,068          345,158

Unsupported transactions               112,679             106,409       50,392          269,480

Unrelated to grant activity              69,740             58,443       94,014          222,197
Total Costs Identified by
                                       417,884             673,583      900,742       $1,992,209
Crowe Horwath



                Table C-2. Non-Payroll Questionable Costs – DHS-OIG
                                        Account            Account      Account
          DHS-OIG
                                         5124               5126         5127            Totals
       Questioned Costs
                                        FY 2006            FY 2004      FY 2005
Unsupported allocations                108,707              93,269      116,190          318,166
Transactions outside of period of
                                         37,957            192,410      551,946          782,313
performance
Misclassification of expenditures        35,155            191,811       80,366          307,332

Unsupported transactions                 96,218             85,745       45,738          227,701

Unrelated to grant activity              50,202             44,328       91,310          185,840

Total Costs Identified by OIG           328,239            607,563      885,550       $1,821,352




        Ohio Law Enforcement Terrorism Prevention Program Subgrants Fiscal Years 2004–2006
 


                                              Page 16
 

Appendix D
Major Contributors to this Report


                      Michael Siviy, Director, Grants Management Division
                      Brad Mosher, Staff Manager
                      Carolyn Floyd, Auditor-in-Charge
                      Rachel Magnus, Program Analyst
                      Cory Upmeyer, Program Analyst




       Ohio Law Enforcement Terrorism Prevention Program Subgrants Fiscal Years 2004–2006 


                                            Page 17 

Appendix E
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs

                      Federal Emergency Management Agency

                      Administrator
                      Assistant Administrator, Grant Programs Directorate
                      Federal Emergency Management Agency Audit Liaison
                      Grant Programs Directorate Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




       Ohio Law Enforcement Terrorism Prevention Program Subgrants Fiscal Years 2004–2006
 


                                             Page 18
 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
